<html>
<title> - THE STATE DEPARTMENT'S CENTER FOR STRATEGIC COUNTERTERRORISM COMMUNICATIONS: MISSION, OPERATIONS AND IMPACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   THE STATE DEPARTMENT'S CENTER FOR
                       STRATEGIC COUNTERTERRORISM
                  COMMUNICATIONS: MISSION, OPERATIONS 
                               AND IMPACT

=======================================================================


                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 2, 2012

                               __________

                           Serial No. 112-164

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
75-389                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, 
TIM GRIFFIN, Arkansas                    Virginia<greek-l>
ANN MARIE BUERKLE, New York          BRIAN HIGGINS, New YorkRemoved 6/
RENEE ELLMERS, North Carolina            19/12 deg.
                                     ALLYSON SCHWARTZ, Pennsylvania
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Alberto Fernandez, Coordinator, Center for 
  Strategic Counterterrorism Communications, U.S. Department of 
  State..........................................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade: Prepared statement.....     3
The Honorable Alberto Fernandez: Prepared statement..............     9

                                APPENDIX

Hearing notice...................................................    28
Hearing minutes..................................................    29
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    31
The Honorable Edward R. Royce:
  Letter from the Honorable Edward R. Royce to the Honorable 
    Alberto Fernandez dated August 14, 2012......................    32
  Letter from the United States Department of State to the 
    Honorable Edward R. Royce received August 30, 2012...........    34
Written responses from the Honorable Alberto Fernandez to 
  questions submitted for the record by:.........................
  The Honorable Edward R. Royce..................................    36
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................    44


     THE STATE DEPARTMENT'S CENTER FOR STRATEGIC COUNTERTERRORISM 
             COMMUNICATIONS: MISSION, OPERATIONS AND IMPACT

                              ----------                              


                        THURSDAY, AUGUST 2, 2012

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Edward R. Royce 
(chairman of the subcommittee) presiding.
    Mr. Royce. This hearing of the subcommittee will come to 
order. Today we examine the State Department's Center for 
Strategic Counterterrorism Communications. Terrorist 
organizations, as we know, use the Internet. They use it to 
propagandize, and they use it to recruit, and they use it all 
over the globe. So prevalent are these extremist Web sites 
today that they have been described as a ``virtual caliphate'' 
in cyberspace. Several witnesses appearing before this 
subcommittee in the past have urged a more vigorous U.S. effort 
to combat terrorist use of the Internet.
    And to go back to recent hearings on this, one cited ``the 
absence of an effective campaign to counter al-Qaeda's 
extremist ideology'' and made the point that that is a central 
challenge, an ongoing challenge. Another witness said that our 
efforts up until now have been ``anemic.'' Stepping into this 
void is the Center for Strategic Counterterrorism 
Communications, which was established by executive order last 
fall.
    While other U.S. agencies may hack into extremist chat 
rooms to sew confusion or to render them useless, or for the 
purpose of collecting intelligence, CSCC's mission is a very 
straightforward one. Its mission is to identify, confront, and 
undermine al-Qaeda or, as the Ambassador likes to say, ``get in 
their heads.''
    Arabic, Urdu, and Somali speakers ``contest'' in these 
online chat rooms and media Web sites and these forums that are 
set up where al-Qaeda and al-Qaeda affiliates operate. As we 
will hear, the aim of its ``digital outreach team'' is to 
expose the inherent contradictions in al-Qaeda propaganda and 
bring to light al-Qaeda's atrocities. One recent effort caught 
headlines after the al-Qaeda affiliate in Yemen posted photos 
of coffins. And in these pictures, they had coffins draped in 
American flags. The center produced a counter ad that replaced 
the flags with the flag of Yemen, conveying, of course, that 
most of the victims of the attacks in Yemen have been local 
people. And these videos, of course, got a quick reaction. And 
they were applauded by analysts for the use of the ``out-of-
the-box'' thinking. And the use of ridicule is pretty common 
here in terms of this interaction that goes on with al-Qaeda on 
these Web sites.
    So this is new. And there are issues for us to consider in 
this. Can the center keep from becoming just another office 
that is bureaucratic? Can we make sure the innovation isn't 
beaten out of it, you know, keep it fresh? Is it responding to 
events on the ground with what I think you call the appropriate 
``counternarratives'' for those situations? And the digital 
outreach team, which includes many contract personnel, have 
also got to master here some pretty sensitive and complicated 
issues, or they could do harm in this situation.
    So how does the State Department oversee their work? How do 
you avoid some of the quality control issues that have plagued 
some of the U.S. international broadcasting efforts over the 
years? I am thinking about some of the problems we have had 
with respect to Iran, for example. So those are the issues. And 
should it go beyond al-Qaeda as a target? Does the center face 
legal constraints is another issue.
    But an overriding question facing the center is the ability 
to measure its impact. Terrorist propagandists have felt 
compelled to react to the center's work with vitriolic attacks. 
We have anecdotal evidence in terms of the effectiveness. In 
December, a top al-Qaeda Web site began discussing ways to 
counter the videos posted by the digital outreach teams that 
are reaching their audience. State Department officials take 
the attitude that it is better to be hated than ignored when it 
comes to al-Qaeda's watchers. But at the end of the day, we 
need a measure of effectiveness. We need to know, are opinions 
changing? And if so, is the center a significant influence, or 
is it just a commendable but ultimately futile attempt to empty 
an ocean of militancy with a spoon?
    Those are the issues we are going to be discussing today. 
And we look forward to hearing from our witness. And I will 
turn now to Ranking Member Sherman for his opening statement.
    [The prepared statement of Mr. Royce follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Sherman. Thank you, Chairman, for holding these 
hearings.
    Back in September 2010, I was sitting there. You were 
sitting immediately to the right, and this same subcommittee 
held hearings called U.S. Strategy for Countering Jihadist Web 
Sites, in which we focused on the efforts to counter the 
radical messages online. And while I know our focus here is 
going to be online, television and radio continue to be even 
more important communications media in most of the world that 
we are trying to reach.
    The State Department Center for Strategic Counterterrorism 
Communications, CSCC, has as its mission to identify, confront, 
and undermine the communications of al-Qaeda affiliates. A 
principal focus is digital outreach. The staff of the center is 
about 45 by the end of this year, I understand, with about 20 
native speakers of Arabic, Urdu, and Somali, and I hope other 
languages as well. And perhaps in your statement you can 
indicate all the languages that you have native speakers 
communicating in. And they are battling on forums and other 
sites where al-Qaeda and its affiliates spread propaganda and 
recruit followers. They expose the work of hate, 
contradictions, false and empty ideology of al-Qaeda.
    And I hope that you are working hand in hand, and maybe you 
will tell us in your opening statement, with the CIA and others 
to identify who the bad guys are, rather than just to argue 
against them. There are some we are not going to be able to 
convince.
    These are open Web sites, forums where vulnerable minds can 
be swayed by al-Qaeda recruiters. According to the State 
Department, the center focuses on two themes in 
counterterrorism communications, that al-Qaeda-inspired 
violence kills disproportionately Muslims, and then violence is 
not necessary for political change. Pakistan is a nuclear-armed 
Islamic state on the front line of several conflicts. With so 
many extremist groups, Pakistan is a pressing international 
problem for us. My hope is that you are reaching out to the 
Pakistani people, not just in Urdu, which is the politically 
correct language that the government and the ISI in Pakistan 
would have you use, but also in the other languages, 
particularly Sindhi. The people of Sindh, who predominantly 
speak Sindhi, have been under attack by governmental bodies. 
And that is why the Government of Pakistan would just assume 
you not use that language. They are so helpful in so many ways, 
that perhaps you might want to ignore their advice. The U.S. 
must reach out to Sindh, when of course the Sindhi language is 
spoken by more people than Urdu, even though I know you have 
native Urdu speakers. So I hope you will be discussing your 
efforts to outreach to southern Pakistan. I would point out 
that this committee passed an amendment stating that at least 
$1.5 million be spent on radio broadcasts, preferably AM, 
perhaps based in the Emirates, to reach out in the Sindhi 
language.
    The terrorist organizations use the Internet to get their 
message across and spread propaganda. We are told that we 
should simply compete with them by posting things where they 
post things. The more aggressive thing to do is just take down 
their sites. And we invented the Internet, and we ought to 
perhaps be aggressive, either by serving notice on certain 
servers in certain countries or through more surreptitious 
means. Are you so sure that you are going to outdebate them 
that you want them to have the run of the Internet?
    Another issue is the budget. You have had some belt 
tightening, a 2011 budget of $6.8 million. In 2012, it was $5 
million. The request now is for $5.15 million. I would just 
point out that even if your work is 100th of 1 percent as 
important as our military, you are a real bargain. And it has 
the additional advantage of not having to pay in both blood and 
treasure for our anti-terrorism efforts.
    So I look forward to hearing from you as to what we can do 
to block terrorist communications as well as to answer them. I 
yield back.
    Mr. Royce. Thank you, Mr. Sherman.
    Now we go to Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    You know, I am grateful for the work that the State 
Department Center for Strategic Counterterrorism Communications 
is seeking to do. In addition to serving on this subcommittee, 
my work on the Homeland Security Committee has enabled me to 
study this issue in depth. And I believe strategic 
communications is crucial.
    This issue is really an issue about the war of ideas. How 
do we achieve victory on a battleground for the hearts and 
minds of individuals who not only commit violent actions, but 
who seek to destroy America, our values, our freedoms, and 
ultimately our Constitution? So what do we do with a war that 
involves conflicting visions of the world; western 
civilization, which values freedom, versus a totalitarian 
political ideology of Islamists espoused by al-Qaeda and other 
terrorist organizations, including the imposition of a rigid 
form of sharia? Radical Islamist clerics and terrorist 
organizations have become masters at using social media. 
Facebook, YouTube, Twitter, Internet chat rooms, and al-Qaeda's 
Inspire allow the publication of religious commentary and 
religious opinions to large audiences instantaneously.
    In the course of this hearing, I would like know to know to 
what extent social media plays in the role of the center's 
identification of current and emerging trends of extremist 
communication. Does the center have an alternative or 
counternarrative to al-Qaeda's Inspire? Additionally, I want to 
understand how the center defines strategic counterterrorism 
communications. What is so strategic about what the center is 
doing? In other words, by strategic, does the center mean 
coordination of communications all across government channels? 
More a bureaucratic messaging strategy? Or does it mean that 
the U.S. Government communications will have a strategic 
effect? I believe the center is on the right path in seeking to 
steer individuals away from violence.
    However, I believe that we can take it further by, one, 
understanding the ideology of Islamists; number two, directly 
countering the ideology by attacking Islamists' authenticity, 
delegitimizing groups, individuals, and movements that support 
Islamist discourse and power; and number three, neutralizing 
Islamist propaganda by showing the parallels between Islamism 
and other forms of political ideology, like totalitarianism and 
fascism and other things. And so Ambassador Fernandez, thank 
you for being here today to testify. I look forward to your 
testimony.
    And with that, Mr. Chairman, I will yield back.
    Mr. Royce. Thank you, Mr. Duncan.
    Today we are joined by Ambassador Alberto Fernandez, the 
State Department's Coordinator for the Center for Strategic 
Counterterrorism Communication.
    Previously, Ambassador Fernandez served as U.S. Ambassador 
to Equatorial Guinea. He served as director for Near East 
Public Diplomacy from 2005 to 2007 and held senior diplomacy 
positions at the U.S. Embassies in Afghanistan, Jordan, and 
Syria.
    I think you were stationed in Sudan for a while.
    A career member of the Foreign Service, Ambassador 
Fernandez has received the Presidential Meritorious Service 
Award and the Edward R. Murrow Award for Excellence in Public 
Diplomacy, among others. He is fluent in Arabic and in Spanish.
    We welcome you to the committee.
    And I would like to acknowledge that the Ambassador 
submitted his testimony to the committee well in advance of 
this afternoon's hearing, a first I think. It is much 
appreciated, obviously, by the members of the committee.
    Your complete written statement, of course, will appear in 
the record. What we are going to suggest is a shorter 5-minute 
opening statement, and then we will proceed with questions.
    And again, Ambassador, thank you for joining us.

  STATEMENT OF THE HONORABLE ALBERTO FERNANDEZ, COORDINATOR, 
  CENTER FOR STRATEGIC COUNTERTERRORISM COMMUNICATIONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Fernandez. Thank you Mr. Chairman.
    Mr. Chairman, Ranking Member Sherman, and Mr. Duncan, thank 
you for the opportunity to be here today. I am pleased to be 
with you this afternoon to discuss the interagency Center for 
Strategic Counterterrorism Communications. I will make brief 
remarks drawing on my formal testimony.
    CSCC was established at the direction of the President and 
the Secretary of State to coordinate, orient, and inform 
government-wide foreign communications activities targeted 
against terrorism and violent extremism, particularly al-Qaeda 
and its allies. We are housed in the Department of State with 
the Under Secretary for Public Diplomacy and Public Affairs. I 
report directly to Under Secretary Sonenshine and work very 
closely with the Bureau of Counterterrorism, other department 
bureaus, and other agencies.
    We have a steering committee chaired by Under Secretary 
Sonenshine with CT Bureau Coordinator Ambassador Benjamin as 
vice chair. The committee comprises nine agencies, including 
NCTC, the Departments of Defense, Treasury, Justice, Homeland 
Security, CIA, and USAID. We target a specific audience 
overseas through our products for U.S. Government 
communicators, projects, and the online engagement of our 
Digital Outreach Team.
    As many of you know, al-Qaeda has repeatedly made clear the 
high importance it attaches to the media struggle. Ayman al-
Zawahiri has described the communications space as more than 
half of the battle. And one scholar noted recently that al-
Qaeda has transformed from a global terrorist organization that 
used the media into a global media organization that uses 
terrorism. So our goal is to move quickly, to respond 
effectively and to contest the space which had been for too 
long monopolized by our adversaries.
    For example, very recently as troubling developments in 
Timbuktu unfolded last month, we were writing a preliminary 
media strategy and producing new digital material specifically 
focused on al-Qaeda in the Islamic Maghreb and its allies' 
destructive activities in northern Mali. To achieve our goals, 
CSCC is divided into three distinct areas of operation, 
intelligence and analysis, plans and operations, and the 
Digital Outreach Team, or DOT.
    The intelligence and analysis section gathers analytic 
support from the intelligence community, academia, and other 
sources of relevant expertise that is essential to our mission 
to counter violent extremism.
    We subscribe to two guiding principles for the center's 
operation: That counterterrorism communications should be 
guided by the best intelligence and academic analysis of the 
audience, the adversary, and the appropriate communications 
themes and techniques; and that this must be an interagency 
effort, drawing on analytical and operational skills across 
U.S. Government agencies. The detail to CSCC of intelligence 
community and U.S. military personnel make this goal a feasible 
one.
    The second part is the plans and operations team, which 
designs and implements nondigital CVE communications 
strategies, tools, and programs to counter al-Qaeda's ability 
to recruit and win support. This section focuses on undermining 
the efforts of al-Qaeda and its affiliates in and emanating 
from five priority areas using nondigital means. The five 
priority areas being Al-Shabaab in the Horn of Africa; al-Qaeda 
senior leadership and its affiliates and allies in Pakistan; 
AQIM and its associates across the Sahel through Northern and 
Western Africa; al-Qaeda in the Arabian Peninsula; and al-Qaeda 
in Iraq and its offshoots in that general area of the Fertile 
Crescent.
    These plans and ops teams provide CVE communications 
material for use by all U.S. Government communicators with 
foreign audiences. These tools include CSCC communications 
templates on topics such as highlighting Al-Shabaab's actions 
against Somalis and shorter Quick Thoughts documents, such as 
the recent, ``A Plague of Locusts: CT Messaging Against AQIM 
and Ansar al-Din.''
    CSCC's third section is the Digital Outreach Team, or DOT, 
which directly counters the al-Qaeda narrative in the 
interactive digital environment. Most of this team's 
engagements, which number more than 7,000 since joining CSCC, 
consist of written text posted to online forums, Facebook, or 
the comments sections of media Web sites. But they also use 
video. They also use poster art, and other means. Engagements 
are branded. Writer analysts identify themselves as members of 
the Digital Outreach Team at the U.S. Department of State. This 
is overt communication in this digital space.
    Three basic principles animate this team's activities: 
Contest the space, redirect the conversation, and confound the 
adversary. An early measure of effectiveness has been the irate 
responses from online extremists who fulminate on various 
occasions, expressing a desire to hack the Digital Outreach 
Team's YouTube channel, warning their followers to be wary of 
providing fodder for the team, and even discussing the 
possibility of setting up their own radical Digital Outreach 
Team to conquer what we are doing. The digital environment is 
rapidly changing, as are al-Qaeda's efforts to exploit them. 
CSCC is committed to keeping pace and innovating. The rise of 
hand-held devices provides an opportunity to do so. And we have 
already deployed video with mobile platforms in one of our 
highest priority areas. A recent Yemen-focused clip garnered 15 
to 20 percent of views on mobile devices.
    Future plans include establishing a presence on mobile-
based interactive environments, distributing audio and visual 
files over mobile devices, and finding new ways to deliver 
digital content to the physical environment through hand-held 
devices. As an example of our work, we recently have a campaign 
that just included a focus in the Urdu language in Pakistan for 
a 30-month period in June-July 2012, pushing back against 
extremist narratives in Pakistan with examples of U.S.-funded 
aid projects. For more than 30 days, the team carried out 255 
engagements using 10 videos and 10 still images on 29 online 
platforms, reaching nearly 50,000 people through Facebook and 
forums, and generating over 400 comments. That was one very 
targeted, narrowly focused campaign on a very specific subject.
    Gentlemen, thank you for your interest and your continued 
support, and I look forward to answering your questions and 
getting into greater detail. But thank you very much. And it is 
a real pleasure to be here.
    Mr. Royce. Thank you, Ambassador.
    [The prepared statement of Mr. Fernandez follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. We appreciate your testimony.
    Let me ask you a question that goes to your strategy. I can 
readily understand the video that you did, stressing al-Qaeda's 
willingness to kill fellow Muslims, and especially the concept 
of destroying the indigenous culture, which we saw in Mali, 
which we saw in Timbuktu, which we saw on the attacks on the 
Sufi mosques in Pakistan and the destruction there.
    But moving to the issue of your team stressing the USAID 
projects in Pakistan, I have never seen our efforts win any 
points in Pakistan. We are about as unpopular as can be there. 
My last three trips there I saw that the Deobandi schools were 
still in full throttle. But why this particular message, as 
opposed to a message of what is being done to traditional 
Pakistani culture by this radical change, you know, on the 
order of what we saw in the Cultural Revolution in Mao's China? 
It is an attempt to destroy the past evidence of the culture. 
You saw that in Afghanistan. The destruction of art, of Muslim 
art as well as Buddhist. And so I think that that is probably a 
more powerful argument, but I wanted to see why we were going 
with this approach.
    Ambassador Fernandez. That is a very good question, sir. We 
use a variety of themes at different times. The theme you 
identify of the radical extreme, unusually extreme nature of 
al-Qaeda and its allies, its virulence, its alien nature from 
the mainstream of Muslims everywhere is one that we stress 
traditionally. So we do stress that in Pakistan and in the 
other areas we work. This specific campaign, as I said, we 
often try to highlight a specific campaign at a specific time. 
So we wanted to use AID's programs as a push back for this 
specific campaign that we did in the month of July. But the 
image, the thrust of what you described is our daily bread and 
butter. It is something that we do all the time.
    Mr. Royce. Let me ask you this. The center is beneath the 
Under Secretary for Public Diplomacy. One of the things I 
thought about here is we have got this new counterterrorism 
bureau, which the department would like to empower. And given 
your specific mission, it would seem to me that it should be 
placed right there. I wanted to ask you about that.
    Ambassador Fernandez. Well, we are literally a stone's 
throw from the CT bureau. They are our next door neighbors, and 
we meet with them on a daily basis.
    Mr. Royce. I understand that. But in terms of strategy and 
tactics, the Under Secretary is more focused, really, on 
cultural and educational exchanges and this type of thing. And 
I think the head of the counterterrorism bureau, given where we 
are trying to drive this policy, would be a lot better equipped 
to deal specifically with your mission. So I understand your 
argument that you talk with them. But I really think it is one 
and the same in terms of the strategy here. And there should be 
consideration in terms of readjusting that mission. Give me 
your response to that if you would.
    Ambassador Fernandez. Certainly. I can see value in both 
approaches. I mean, obviously, we are working in a 
communications field. So that is very germane to the work of 
the Under Secretary for Public Diplomacy and Public Affairs. 
And this is, as Mr. Duncan noted, this is an ideological 
question, this is a question of messages and narratives. So I 
can see that it has a public dimension.
    On the other hand, we have to work very closely with our 
counterterrorism colleagues not only in the CT bureau, but 
across the interagency with NCTC, with CIA, and others. And so 
I can see the value of both of those arguments.
    Mr. Royce. Thank you, Ambassador Fernandez.
    Mr. Sherman.
    Mr. Sherman. Thank you. You have native speakers in Arabic 
and Urdu and Somali. What other languages do you have native 
speakers in?
    Mr. Royce. Ambassador, bring your mic a little closer when 
you answer, please.
    Ambassador Fernandez. Thank you, sir.
    Generally, those are the three languages we focus on. 
Obviously, we have native speakers, for example some of our 
Urdu speakers speak more than Urdu. But our messaging has been 
in those three languages. But even that is new. We added Somali 
only recently. So we are certainly open to adding other 
languages. And we are certainly open in exploring the option 
that you discussed.
    Mr. Sherman. I would hope very much that you would focus on 
Pakistan, which is the only nuclear state of interest to your 
organization, and that you would focus on the different 
languages of Pakistan, since Urdu is spoken by only 8 percent 
of the population and the Sindhi language is spoken by 12 
percent. I am glad to see you are part of the overall public 
diplomacy effort.
    But in the communications world, there is a tendency to 
just create some separate Web people, when in reality our overt 
communications on the Web are directly tied to what we do at 
Voice of America, radio and television, what we do under false 
flag Web postings, which I guess is another department, 
probably should be the same department. And how closely do you 
work with Voice of America to make sure that you are making the 
same points, especially when you are posting video, and they 
are making TV shows?
    Ambassador Fernandez. We certainly, they are colleagues, 
and as a public diplomacy officer, I know them. We see them 
frequently. We have staff that came from the BBG.
    Mr. Sherman. Do you promote their programs?
    Ambassador Fernandez. Not really.
    Mr. Sherman. Do you take their tape and put it up on 
YouTube?
    Ambassador Fernandez. That is not something that we have 
done. The reason I would say is our focus has been that there 
is a great deal out there that the U.S. Government is doing 
which is supportive, sending a positive message. What we are 
trying to do is attack the enemy.
    Mr. Sherman. I would hope that the Voice of America is 
doing that, too. If you are the only one countering the 
terrorist message directly, and we decided to do it only on the 
Web, and not radio and television, a lot of us are here in the 
communications business, some of us have been involved in 
campaigns, none of us would dream of getting our message 
exclusively out on the Web and ignoring radio and television. 
And I guess these days none of us would think of doing the 
exact opposite of that either.
    And then I pointed out in my opening statement, how closely 
do you work with those who could either take down a terrorist 
site or identify terrorist individuals by looking at what is 
going on on the Web?
    Ambassador Fernandez. We work very closely with those who 
are identifying the appropriate recipients or individuals. 
Since we have an intelligence community component within CSCC, 
we have CIA officers working within CSCC. We have reach back 
into the intelligence community.
    Mr. Sherman. You don't have to tell me what we have done, 
but has anybody taken down a major terrorist Web site, whether 
we did it or maybe, you know, some act of God did it?
    Ambassador Fernandez. That is of course a related but 
different field, which is called cyber warfare. And I think 
there have been some very big successes there.
    Mr. Sherman. Have you noticed any of these sites that you 
are trying to oppose disappearing, which is a very good way to 
oppose them?
    Ambassador Fernandez. They seem to come and go and come 
back.
    Mr. Sherman. Now, you have experts in the culture and 
language that you are trying to reach out to. But many of these 
arguments get down to the details of Islamic law and the 
Hadith, the Koran. Do you have people there who have read 1,000 
fatwas from various respected clerics who can tell you what is 
a good Hadith and a bad Hadith? How good are you at having 
people that can argue on Islamic terms?
    Ambassador Fernandez. That is a very good question. What we 
try do is focus not so much on abstract questions of Islamic 
law, but on the enemy's actions and point to the internal 
contradictions, the incoherence and dissonance that exist in 
the enemy's own discourse.
    Mr. Sherman. So you show that they are not--that they are 
hypocritical vis-a-vis their own statements, not that they are 
unIslamic because their actions contradict parts of the Koran.
    Ambassador Fernandez. That is exactly right.
    Mr. Sherman. I don't know if Congress will give you enough 
money to do it, but I hope that you would go beyond showing 
that they clash with their own statements and show that they 
clash with the best in Islam. And I believe my time has 
expired. Do get back to me on your efforts to go into those 
other languages. Thank you.
    Ambassador Fernandez. Thank you.
    Mr. Royce. We are going to go now to Mr. Duncan from South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Ambassador, what is the center doing to neutralize the 
communications of state sponsors of terrorism, such as Iran, 
especially in the areas of immediate importance to the U.S., 
like Iraq and Afghanistan, where the Iranian Government is 
really seeking to fill the political vacuum the U.S. is leaving 
in its rapid withdrawal?
    Ambassador Fernandez. Sir, since our focus has been mostly 
on al-Qaeda, we are so new, Iran----
    Mr. Duncan. I think you need to start focusing on Iran. 
Just a word of caution.
    Ambassador Fernandez. I can see the value of that. That 
goes to a question that several of you have asked. Obviously, 
we have our main focus, which is guided from the National 
Counterterrorism Strategy, which focuses mostly, principally on 
al-Qaeda. But under the direction of the interagency, we are 
ready and willing to take up new tasks, whether it be new 
specific areas, new languages, or new adversaries.
    Mr. Duncan. Okay. Define how the center views the long-term 
strategic goals of Islamist extremist groups that presently do 
not wage terrorism against the U.S., specifically the Muslim 
Brotherhood. How have you all addressed that?
    Ambassador Fernandez. Well, there is incredible hatred for 
the Muslim Brotherhood among al-Qaeda. You know, we see daily 
the daily vitriol, propaganda that al-Qaeda puts out every 
single day. And they call the Muslim Brotherhood traitors. They 
call them renegades. They call them people that are 
collaborating with this disgusting western thing which is 
called democracy and elections. Because they believe there 
should be no democracy, there should be no elections.
    The idea that a Muslim, even a conservative Muslim, like 
the Muslim Brotherhood, would be elected is anathema to al-
Qaeda. Because for them if you are elected one day, as you 
yourselves know, one day you are elected, one day you can be 
chosen not to be elected. And the way al-Qaeda sees it, that is 
not the role of the people. The people have no role in that.
    So any Muslim, whether they be the most conservative, you 
know, anti-Western Muslim who participates in the political 
process, even Salafis, are seen as anathema by al-Qaeda. One of 
the most fascinating things which has happened over the last 
year, which I am sure you are well aware of, is that we have 
had the most dramatic, incredible political events in the Arab 
world in decades, maybe in centuries that have happened over 
the past year, and al-Qaeda had nothing do with it. Absolutely 
nothing. You had governments falling. You had people in the 
streets. You had millions marching, and al-Qaeda was not part 
of that conversation. This drives them crazy. This drives them 
crazy in the propaganda, that basically the most important 
thing that is happening in the Arab world, and al-Qaeda is 
basically an Arab organization, and they are completely 
irrelevant to that issue.
    Mr. Duncan. That is kind of an interesting answer. I 
appreciate you bringing that up. That is something I want to 
chew on a little longer.
    Just on a different line of questioning in my remaining 
time, reportedly the Fort Hood shooter, Major Hasan, was 
influenced over the Web. Has the center studied this 
indoctrination? And how has it influenced the way the center 
operates?
    Ambassador Fernandez. That is a very good point, and it 
goes to a point that the chairman mentioned as well when he 
talked about the virtual caliphate. And that is that one of the 
unfortunate things or one of the realities that we face on the 
Internet is that over time, you have a base of stuff that is 
out there. And so there is a you can say a hill or a mountain 
of poisonous stuff that has been spewed out by the extremists, 
whether photos, or videos, or words, and it is there. And even 
if the terrorists are eliminated, that material is still there, 
and it can infect, it can poison young minds, impressionable 
minds, anywhere in the world.
    Mr. Duncan. Are you also looking--you are looking at what 
al-Qaeda and the extremists are posting on their Web sites, but 
you are also in the chat rooms, so you are seeing what possibly 
a Major Hasan would post himself in a chat room and engaging in 
conversation. Are you all monitoring that? Are you sharing that 
with other intelligence agencies?
    Ambassador Fernandez. Since we have a relationship with the 
intelligence community, we get information from them, and we 
also, when we see things, we share that with them if 
appropriate, yes.
    Mr. Duncan. I think that is important. You know, I am 
frustrated on Homeland Security when I hear some of the 
agencies aren't talking, aren't sharing information, especially 
when it comes to immigration issues. But I want to make sure 
that we don't have this stovepipe effect that we experienced 
after the 9/11, and what the commission report put out.
    So, with that, Mr. Chairman, I will yield back.
    Mr. Royce. Thank you, Mr. Duncan.
    We will go now to Mr. Poe from Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    On Friday, a journalist who was angry with NBC's tape 
delay, which we are not going to discuss, of the Olympics, 
spoke out over Twitter. NBC complained to Twitter. By Sunday, 
Twitter had shut down the journalist's account. Twitter 
wouldn't restore that for 2 days.
    But when it comes to a terrorist using Twitter, Twitter has 
not shut down or suspended a single account. According to 
Twitter's terms of policy, any ``person barred from receiving 
services under the laws of the U.S. may not own a Twitter 
account.'' Terrorist organizations using Twitter, to me, is a 
violation of U.S. law.
    Section 219 of the Immigration and Nationality Act states 
that it is unlawful to provide a designated FTO with 
``material, support, or resources, including any property, 
tangible or intangible, or services.''
    Among those, communication equipment and facilities. 
Terrorists are using Twitter. Twitter is a communication 
service. It seems like it is a violation of the law.
    One example is the Somali al-Qaeda affiliate Al-Shabaab. 
Shabaab is an officially recognized foreign terrorist 
organization. Killed 74 people in a series of suicide bombings 
in Uganda during the 2010 World Cup. Shabaab has its own 
Twitter account. On December 7, interesting date, 2011, it 
tweeted, ``The jihad being waged here in Somalia shall continue 
until the country is purified of all the invaders.'' Two more 
officially recognized foreign terrorist organizations, Hamas 
and Hezbollah, started tweeting in 2009 and 2011 respectfully. 
The Taliban, which the U.S. Government held accountable for the 
attacks on 9/11, has two official Twitter accounts. August 8, 
2011, the Taliban tweeted, ``Four American cowards killed, six 
wounded in battle, two tanks destroyed.'' I could go on with 
more and more, but I won't.
    Twitter says it can't verify these accounts are really used 
by terrorist groups or someone claiming to be these groups. So 
Twitter relies on the United States Government to verify 
accounts. Twitter says it will comply if the government asks 
them to shut down an account.
    To my knowledge, not one terrorist Twitter account has ever 
been shut down by our Government.
    And I want you to correct me if I am wrong on that, Mr. 
Fernandez.
    There is a reason why Hezbollah tweeted an average of about 
250 tweets a day since it opened its account in November. 
Twitter is a great way to spread propaganda and get new 
recruits and promote crimes against Americans.
    My question is NBC was able to get the Twitter folks to 
close it down because some civilian complained about their news 
service or about the Olympics. Not saying that is right or 
wrong, but that did occur.
    So my question really is, can you describe the terrorists' 
use of Twitter and what we are actively doing about it?
    Ambassador Fernandez. I would say, sir, that is mostly a 
law enforcement question. So it is not my area of 
responsibility in the sense that we are dealing with 
communications.
    From what I see in Twitter, it is certainly in the 
languages that we are working, it is not a major issue in the 
vernacular languages. In other words, it is often used in 
English to communicate with English language constituencies. 
For example, Al-Shabaab using Twitter was in English, not in 
Somali.
    So since we are focused on the vernacular languages, 
Arabic, Urdu, Somali, and potentially others, that is not our 
main area of focus.
    But I certainly understand your concern. But I think that 
is a question for law enforcement authorities, both here and 
internationally, rather than a communications entity.
    Mr. Poe. Does the State Department have a policy regarding 
FTOs using Twitter? Do you have a policy about what the State 
Department is going to do or not going do? Any policy at all 
about Twitter? Or is that just somebody else's responsibility?
    Ambassador Fernandez. Twitter, obviously, is an American 
entity, and so it is all our responsibility.
    But as I said, since we are focused overseas in foreign 
languages and not in English and not in something like Twitter, 
which is very narrowly defined; that is not an area where we 
work on on a regular basis. Al-Qaeda doesn't use Twitter.
    Mr. Poe. You would agree, would you not, that some foreign 
terrorist organizations do?
    Ambassador Fernandez. Definitely. Definitely.
    Mr. Poe. It works. They get recruits, and they spread 
propaganda. At least they claim to do things that have occurred 
throughout the world. And so I am just concerned about what the 
United States' position on that is and what we can do about it, 
if anything. Do you have a recommendation?
    Ambassador Fernandez. You know, since it is not something 
that we are working on in the Twitter field, it is not an area 
which I am very well versed.
    Certainly we need to look at all the tools in the toolbox. 
And CSCC's view has always been that the area where the enemy 
focuses on, that is where we should go. The main focus, for 
example, of al-Qaeda's social media communications is video and 
text on Web sites, on media fora. For them, Twitter is not 
something that they look at.
    As you mentioned very rightly, some other terrorist groups 
do use it, especially to communicate with sympathizers in the 
West. So to me, that seems that that is a very legitimate 
question for law enforcement individuals in the State 
Department and outside of the State Department.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Royce. Thank you. We are going to go through another 
round of questions.
    Let me ask you this, Ambassador Fernandez. The State 
Department has a reputation, in terms of the clearance process, 
that a lot of times could hinder a rapid response, right? And 
the one thing you need to be effective is the ability to 
respond quickly. Is this a fair criticism, and how we can 
ensure that what you do isn't weighed down by a process which 
becomes very cumbersome, very bureaucratic in nature?
    Ambassador Fernandez. Well, sir, anyone who has worked in 
Washington in government knows the clearance process can be 
very cumbersome. It is not just in the State Department. That 
is true anywhere in government.
    We are fortunate in CSCC in that the people that started 
this about 1\1/2\ years ago realized that this was going to be 
an issue. So when it comes to our digital operations, the 
clearance process is internal to CSCC.
    Mr. Royce. I see.
    Ambassador Fernandez. Which means we are able to respond 
within minutes to an opportunity.
    Mr. Royce. Very good. I wonder if you could just give us an 
example or two of the success beyond what we have talked about 
today in terms of what you do, how it works. Just share it with 
the committee.
    Ambassador Fernandez. Well, there are many. I would say 
that it is not an easy thing. It is a difficult thing. One day 
you feel you have made a success, and another day you feel like 
you are starting all over again. The one that garnered a lot of 
attention is an important one in that, as you know, al-Qaeda in 
the Arabian Peninsula tried to establish a foothold in south 
Yemen. We focused on that. We used all our tools and did, over 
a very short period, 600 engagements. We put out videos. We put 
out poster art like the one that you referred to. It received a 
very positive response by basically people adopting the 
rhetoric that we were using against the terrorists.
    So, for example, one thing we did, al-Qaeda doesn't like to 
call itself al-Qaeda in Yemen. They are ashamed of that. And so 
they use a pseudonym. They call themselves Ansar al-Shariah. 
Because sharia in some Muslim circles is like, you know, mom 
and apple pie. And so we began in our messaging to call them 
Ansar al-Sharr, which means Partisans of Evil. And we noticed 
other people writing digitally adopting the nickname that we 
had given to them. And this organization, al-Qaeda in the 
Arabian Peninsula, in its last newsletter before it had to head 
for the hills when the Yemeni army drove them out of their safe 
havens, devoted an entire page to our operation, attacking what 
we were doing.
    Mr. Royce. That was clever, and it was quick. I remember 
the 9/11 Commission, when they did their thorough study of our 
national security agencies, said we just lacked imagination. 
And the other concern is just that imagination can get quashed 
or destroyed by bureaucracy. So you have got a situation where 
everything is pre-cleared, you can basically use your best 
judgment to keep up with the terrorist networks.
    But let me ask you this. The other thing we are really 
interested in is how to quickly close down these sites. Now, I 
know as fast as these sites move and spring up and you try to 
stay abreast of them, that that is a difficult process. But 
tell us how you work in conjunction to make sure that we do all 
we can do to get these things off the Web.
    Ambassador Fernandez. That is a good question. I mean, 
there are two issues here. There are terrorist sites where 
terrorists communicate to each other. And those are often 
password protected sites, those are basically terrorists have 
to sign in, you know, this is terrorist so and so from--known 
by somebody. Those are the object of cyber operations. Where we 
focus on is a slightly larger but more dangerous pool, which 
is, as I was telling Mr. Duncan, the terrorists want to go from 
the margins to the mainstream. They want to metastasize. They 
want to infect a larger population. So where we focus with our 
overt work are these--the middle ground of the contested space, 
which are sites that often are very political sites where 
people in the Muslim world are concerned about politics and 
reading about politics. And al-Qaeda trolls for people to 
radicalize them, to make them from maybe people who are unhappy 
with the United States or even angry at the United States to go 
that extra mile from being angry to being a terrorist. So that 
is the area where we are working.
    Mr. Royce. Thank you, Ambassador Fernandez.
    Mr. Sherman.
    Mr. Sherman. One of the important things in protecting the 
American homeland is to prevent the radicalization of those who 
are fluent in English and could be the most effective 
terrorists operating here. Do you operate in English? And if 
not, who does?
    Ambassador Fernandez. Sir, we do not operate in English. 
Obviously, since our being with the State Department, our focus 
being overseas, our main focus is of course in those vernacular 
languages which I mentioned. A lot of what you are talking 
about of course is extremely important. It falls in the area of 
domestic radicalization, would be DHS and others.
    Mr. Sherman. There is an international component to 
everything I am talking about.
    Ambassador Fernandez. Yes.
    Mr. Sherman. U.S.-based sites don't say how to build a bomb 
in the kitchen of your mom. So all of this is international. 
The English language is international. And preventing someone 
fluent in English from becoming radicalized may be many times 
more important than preventing someone else from being 
radicalized in the sense of protecting the districts we 
represent. It is hard to criticize you for not doing more, 
because your budget is I believe the smallest of any government 
entity that has come before this subcommittee, let alone the 
full committee.
    And so let me continue my efforts to get you to do more 
without necessarily being part of getting you any more 
resources. You seem to be focused on Sunni terrorism. What 
about the Shiite extremist groups and the Farsi language?
    Ambassador Fernandez. Farsi has not been our focus at all. 
We focus on those three languages. There are obviously other 
terrorist groups, like Hezbollah, which are of great concern to 
all of us. That has not been a task that we have taken on yet. 
But if we are directed to do so through the interagency, we are 
very happy to engage on that issue with the same alacrity and 
the same tools that we have engaged in Arabic against al-Qaeda.
    Mr. Sherman. Congress never said limit yourself to the 
Sunnis or limit yourself to the three languages you are doing. 
We would like you to do it all. And you may have to be larger. 
And I would hope that those a pay grade or two above you will 
indicate how we can make your operation larger without 
necessarily increasing the entire State Department budget.
    I would like to get back to the idea of taking down the bad 
sites. You have indicated these sites come and go. Have any of 
them gone in the sense of the plug was pulled on them? And has 
there been traffic where people complain that there was a 
popular terrorist Web site, and it looks like the damn 
Americans or somebody else has taken it down?
    Ambassador Fernandez. That certainly has been things that 
have been said at times by terrorist groups and their 
sympathizers. But given the nature of the Internet, and given 
its very fluid nature, these things do tend to pop up. You 
know, when they are taken down, they pop up in a different--or 
a similar organization takes its place.
    Mr. Sherman. The disadvantage to the terrorists there is 
that, you know, a lot of American companies spend a fortune to 
get you on their, you know, bookmarked, et cetera. And to the 
extent that you can have people say, oh, that site is not 
there, I got to go search, maybe they will end up at a 
reasonable site.
    Ambassador Fernandez. Make it more difficult.
    Mr. Sherman. Yes, exactly.
    Ambassador Fernandez. Or put a cupcake on the picture, as I 
think I read on Congressman Royce's blog.
    Mr. Sherman. You are searching the Internet more than I am. 
I have not read Congressman Royce's blog. I am sure he will 
tell me about it on the floor.
    With that, I yield back.
    Mr. Royce. I will do it on your time right now. Foreign 
Intrigue Blog, if you would like to access the Web site. The 
Foreign Intrigue Blog.
    Thank you, Mr. Sherman.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    As I have been sitting here listening, I keep going back to 
a couple of things. I want to blend some of the things I asked 
earlier with what Congressman Poe had mentioned. You know, 
Twitter is used abroad. And I think the center's jurisdiction 
is focused on abroad, communications abroad, the foreign 
audience, communicating with a foreign audience. So I disagree 
with one thing you said. I don't believe this is a DHS or an 
FBI law enforcement jurisdiction area. I do think the 
Department of State and your center does have some jurisdiction 
in this as regard to what foreign nationals do use Twitter for. 
And they are absolutely using Twitter. That is not a question. 
That is just a statement. If you want to respond to that in 
just a minute, I don't mind that.
    But you keep going back to al-Qaeda. Is it the State 
Department and this administration's policy that al-Qaeda is 
our only threat?
    Ambassador Fernandez. We are guided by the National 
Counterterrorism Strategy.
    Mr. Duncan. Would you pull the microphone up a little bit?
    Ambassador Fernandez. We are governed by the National 
Counterterrorism Strategy. The main focus of the National 
Counterterrorism Strategy is al-Qaeda. It also refers to other 
terrorist threats throughout the world. Given the sheer volume 
of poison that they put out in the digital world and in the 
communications world, it made sense for this organization, 
which is such a new organization, to focus on them. Certainly 
we are open to direction to do new tasks. But you have seen the 
threat information, as we have, and you have seen just the 
sheer volume of stuff that is put out there.
    Mr. Duncan. And it is amazing. It is overwhelming. I agree 
with you there. We have had this conversation.
    Ambassador Fernandez. We are certainly willing to look at 
other opportunities.
    Mr. Duncan. I just don't want the agency, the State 
Department or any agency, to get tunnel vision, to be so 
focused on what you perceive as the threat coming from al-Qaeda 
that we get blindsided. Now, I hope you have looked at the 
foreign terrorist organization list on the State Department Web 
site.
    Ambassador Fernandez. Yes.
    Mr. Duncan. I glanced as it just now. And I see Hezbollah, 
Abu Sayyaf, Hamas, Palestinian Liberation Front, Al-Shabaab, 
Haqqani, Boko Haram, FARC. There are a lot of threats to this 
Nation. And we look at what has happened just in the Western 
Hemisphere with Iran coming over and the Saudi Ambassador 
assassination attempt that was thwarted. There are so many 
things, I do not want you to get tunnel vision. I think America 
is threatened more by the State Department focusing solely on 
al-Qaeda.
    And so as you are monitoring these sites, you know, you 
better monitor Hamas. You better monitor Hezbollah. You better 
monitor Abu Sayyaf, which is limited, but there are a number of 
others. I just want to raise awareness to that and ask you to 
respond to what is being done.
    Ambassador Fernandez. We are certainly very open-minded 
about the threat. Obviously, there is a lot the U.S. 
Government, including the State Department, does on 
counterterrorism aside from the communications field, a whole 
range of policies directed at all of those groups. But we are 
open to looking at those threats. We certainly aim not to have 
tunnel vision.
    I think maybe because we have a small budget, we want to be 
nimble. We want to be agile. We want to be creative. And we 
have been. So we will continue to be that way and monitor and 
look at the threat and go wherever the threat takes us.
    Mr. Duncan. Was your area within the State Department 
created post-9/11?
    Ambassador Fernandez. Yes, very much so.
    Mr. Duncan. Okay. We have seen that created. We have seen 
the Department of Homeland Security created, 15,000 employees, 
$3.4 billion complex out on the Potomac. We are spending a heck 
of a lot of money in this country to bring assets online. And I 
can go on and on, National Counterterrorism Center and other 
things. I want to make sure that you guys are all talking. I 
think there is--you know, State is looking foreign, but I think 
there is a tie in and a need to make sure that NCTC, and your 
group there at State, and Homeland Security, and everyone else 
are communicating, sharing information. As overwhelming as it 
is, there are ways to assimilate and tie that information 
together. Are you doing that?
    Ambassador Fernandez. Absolutely.
    Mr. Duncan. Are there shared systems? Are there platforms, 
Google-based, where this information is all pulled together if 
you search one search word?
    Ambassador Fernandez. Absolutely. We think one of our 
distinctive features is our connection to the intelligence 
community. So that we are able to leverage the best analysis 
and thought of the intelligence community in our work. And it 
goes both ways. We sometimes find things that are of great use 
or interest to them, and they also help us in the whole 
question of collection of data, whether they be images, 
information, material that we can use to disparage and 
discredit the enemy. So, yes, I think there is an excellent 
relationship, excellent communication with CIA, with NCTC, and 
with others.
    Mr. Duncan. Ambassador, you have a challenge. And so thank 
you for sharing this. It is something I think we, as Congress, 
and the administration needs to work on to protect America. I 
appreciate your efforts.
    Ambassador Fernandez. Thank you.
    Mr. Royce. I thank you. I think the members are supportive 
of your efforts here. You are taking on a very difficult 
mission. We will want to keep the conversation on this going. I 
wouldn't be surprised if at some point you run into some of the 
same quality control issues that we have had with VOA and RFA 
on the Persian Service with respect to some of the Farsi 
speakers. It just seems to go with the territory. But as long 
as you are attuned to it, I think that would be important. As I 
mentioned, we will have some specific questions for you on the 
record. And again, we appreciate all your efforts. We stand 
adjourned.
    [Whereupon, at 3:04 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\\<box>tt<box><natural> <bullet><natural><pound><acctof> 
                <Register><pound><variable><star><box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   <F-dash>\\<box>tt<box><natural> <bullet><natural><pound><acctof> 
                          <Hoarfrost>tat<box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                 <F-dash>\<because><F-dash><Register>s 
                <Register><pound><variable><star><box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                 <F-dash>\<because><F-dash><Register>s 
                 <triangle><brit-pound><Rx><star>a<Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
